<html>
<title> - CHINA DEMOCRACY PROMOTION ACT OF 2011</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                 CHINA DEMOCRACY PROMOTION ACT OF 2011

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                   IMMIGRATION POLICY AND ENFORCEMENT

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 2121

                               __________

                            NOVEMBER 2, 2011

                               __________

                           Serial No. 112-65

                               __________

         Printed for the use of the Committee on the Judiciary



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



      Available via the World Wide Web: http://judiciary.house.gov


                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
71-055 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                        COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             [Vacant]
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
MARK AMODEI, Nevada

      Sean McLaughlin, Majority Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

           Subcommittee on Immigration Policy and Enforcement

                  ELTON GALLEGLY, California, Chairman

                    STEVE KING, Iowa, Vice-Chairman

DANIEL E. LUNGREN, California        ZOE LOFGREN, California
LOUIE GOHMERT, Texas                 SHEILA JACKSON LEE, Texas
TED POE, Texas                       MAXINE WATERS, California
TREY GOWDY, South Carolina           PEDRO R. PIERLUISI, Puerto Rico
DENNIS ROSS, Florida

                     George Fishman, Chief Counsel

                   David Shahoulian, Minority Counsel












                            C O N T E N T S

                              ----------                              

                            NOVEMBER 2, 2011

                                                                   Page

                                THE BILL

H.R. 2121, the ``China Democracy Promotion Act of 2011''.........     2

                           OPENING STATEMENTS

The Honorable Elton Gallegly, a Representative in Congress from 
  the State of California, and Chairman, Subcommittee on 
  Immigration Policy and Enforcement.............................     1
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Ranking Member, Subcommittee on 
  Immigration Policy and Enforcement.............................     5
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Chairman, Committee on the Judiciary.......     5

                               WITNESSES

The Honorable Christopher Smith, a Representative in Congress 
  from the State of New Jersey
  Oral Testimony.................................................     7
  Prepared Statement.............................................   123
Chai Ling, Founder, All Girls Allowed
  Oral Testimony.................................................   126
  Prepared Statement.............................................   129
Ruth Ellen Wasem, Ph.D., Congressional Research Service, The 
  Library of Congress, Washington, DC
  Oral Testimony.................................................   199
  Prepared Statement.............................................   202

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Christopher Smith, a 
  Representative in Congress from the State of New Jersey........     8

 
                 CHINA DEMOCRACY PROMOTION ACT OF 2011

                              ----------                              


                      WEDNESDAY, NOVEMBER 2, 2011

              House of Representatives,    
                    Subcommittee on Immigration    
                            Policy and Enforcement,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 3:30 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Elton 
Gallegly (Chairman of the Subcommittee) presiding.
    Present: Representatives Gallegly, Smith, Gowdy, and 
Lofgren.
    Staff Present: (Majority) Dimple Shah, Counsel; Marian 
White, Clerk; and (Minority) Hunter Hammill, USCIS Detailee.
    Mr. Gallegly. I call the Subcommittee to order.
    The relationship between the United States and China has 
been characterized by Vice President Biden as the most 
important in the world. In many respects, that is true. 
However, it seems to me that the relationship between the U.S. 
and China can be characterized as increasingly complex and, at 
times, even conflicted since the establishment of the People's 
Republic of China on October 1, 1949.
    Initially, the relationship between the United States and 
China was hostile. In fact, our two countries faced off in 
Korea from 1950 to 1954. Throughout much of the cold war, our 
relationship with China was tense. Slowly, our relationship has 
improved since then, especially in terms of our economic ties.
    Although our relationship has improved, important 
differences remain. Currently and in the foreseeable future, 
China will represent a key focus of U.S. foreign and 
international economic policy. Some say that economic 
development in China will inevitably lead to democracy. 
However, the reality is that while economic growth in China 
continues, the United States justifiably remains critical of 
the slow pace of democratic reforms in China.
    As a result, it has been U.S. policy, under both Republican 
and Democratic administrations, to encourage political change 
and human rights improvements in China. Those in the Chinese 
government who commit or sanction abuses should be forewarned 
that their actions will not be tolerated by the United States. 
H.R. 2121, introduced by my colleague, or our colleague, Chris 
Smith, does just that. It informs human rights abusers in China 
that the United States does not stand by as atrocities are 
committed. It lets them know they are not welcome in the United 
States. Hence, I urge my colleagues to support the bill.
    [The bill, H.R. 2121, follows:]


    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. And, with that, I would yield to the 
gentlelady from California, the Ranking Member, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    First, let me begin by welcoming the bill's author, 
Congressman Chris Smith, to our Committee. It is a pleasure to 
have you here, along with your co-witnesses.
    The bill that you have introduced raises important 
questions about U.S.-China relations. And while the bill falls 
within our Subcommittee's jurisdiction because it authorizes 
denial of visas to certain Chinese nationals, its main focus 
falls in the foreign affairs realm and the Chinese government's 
dismal human rights record.
    Mr. Smith and I have worked together on human rights issues 
in the past, particularly as they relate to the treatment of 
trafficking victims and refugees. And I share Mr. Smith's grave 
concerns about China's human rights record, and I understand 
his reasons for introducing the bill.
    China's human rights record reads like a laundry list of 
abuse: the country's infamous one-child policy, which includes 
forced abortions and sterilizations; the oppression of 
Tibetans; the treatment of ethnic minorities like Uyghurs and 
Mongolians; the crackdowns on democracy and labor rights 
activists; and the persecution of certain religious groups, 
including Protestants, Catholics, and the Falun Gong. Our 
witness, Ms. Chai Ling, saw these abuses firsthand in Tiananmen 
Square and has since become an outspoken advocate against the 
one-child policy.
    The bill highlights one tool at the government's disposal 
for holding human rights abusers accountable: denial of visas 
under section 212(f) of the Immigration and Nationality Act. I 
understand the State Department believes it already has this 
authority under current law. They also seem to have foreign 
policy concerns with this bill. I suspect their concerns about 
this bill center on the need to balance the various foreign 
policy goals our country has with China.
    The U.S. has significant ties with China, particularly 
economically, and a strong diplomatic relationship is 
necessary. But I agree that we also cannot ignore China's human 
rights record. I look forward to learning today why the 
additional authority provided in the bill is needed and how it 
can address the serious ongoing human rights crisis in China 
while balancing the government's foreign policy goals.
    And, again, I want to thank Mr. Smith for his work on this 
important issue and thank him and our other witnesses for 
appearing today. And I look forward to hearing the testimony.
    And I yield back, Mr. Chairman.
    Mr. Gallegly. I thank the gentlelady.
    And, with that, I will yield to the other Mr. Smith, the 
Chairman of our full Committee, the gentleman from Texas.
    Mr. Smith of Texas. Thank you, Mr. Chairman.
    Human rights abuses in the People's Republic of China 
remain common and widespread. As the Chinese government 
continues to suppress dissenting opinions and maintains 
political control over the legal system, the will of the people 
and individual rights are consistently undermined. The end 
result is arbitrary and abusive treatment of the Chinese 
people.
    The bill we will discuss today, which was introduced by our 
colleague Chris Smith from New Jersey, assists in combating 
human rights abuses in China. While I support the bill, some of 
language might be clarified so the sanction on senior leaders 
in the Chinese government is tied directly to the human rights 
abuses defined in the bill.
    Human rights abuses, including arbitrary detention, 
torture, and severe restrictions on freedom of expression and 
association, are rampant in China. And violations specific to 
women and abuses related to the national Family-Planning Policy 
are also rampant.
    As to the Family-Planning Policy, the Chinese government 
requires couples to practice family planning. The cornerstone 
of this policy is the offensive one child per couple policy.
    To enforce this law, local authorities use the carrot of 
subsidized medical care, education, and housing. But they also 
employ a harsh stick--punishments including fines, confiscation 
of property, salary cuts, and even dismissal from work.
    Some of the most disturbing methods used to enforce the 
family-planning laws have included the forced use of 
contraceptives and forced abortions for pregnant women who 
already have one child.
    The one-child policy, with the traditional preference for 
male children, has led to practices such as female 
infanticide--the practice of killing female babies--concealing 
female births, and abandoning female infants.
    The one-child policy has also contributed to the practice 
of prenatal sex identification, resulting in the abortion of 
female fetuses. Although the government has outlawed the use of 
ultrasound machines for this purpose, the practice continues.
    By denying visas to certain Chinese nationals in the 
government who promote human rights abuses, we might as well 
assist Chinese patriots who work to end the lack of 
accountability for government officials who are part of the 
Chinese Communist Party. This legislation will send a message 
that abuses by these officials that go unchecked within China 
will not be ignored by the international community.
    Now, once again, I want to thank our colleague from New 
Jersey for sponsoring this legislation. I look forward to a 
good hearing today and then to giving this bill its process. 
And I will have some questions for the gentleman from New 
Jersey in just a minute.
    Thank you, Mr. Chairman.
    Mr. Gallegly. Thank you, Mr. Smith.
    We have three very distinguished witnesses today. Each of 
the witnesses' written statement will be made a part of the 
record in its entirety. I ask that each witness summarize his 
or her testimony in 5 minutes or less so that we can get on 
with the questioning, recognizing that your entire statement 
will be made a part of the record of the hearing. And we have 
provided lights there to kind of help you along those lines.
    Our first witness today is our colleague and friend, 
Congressman Chris Smith, who represents New Jersey's Fourth 
District and is currently serving his 16th term in the House of 
Representatives. He is a senior member of the Foreign Affairs 
Committee and Chairman of its Africa, Global Health, and Human 
Rights Subcommittee. In addition, he serves on the 
Congressional-Executive Commission on China. He is the author 
of America's three landmark anti-human-trafficking laws, 
including the Trafficking Victims Protection Act of 2000. 
Congressman Smith received his bachelor's degree from Trenton 
State College, now The College of New Jersey.
    Our second witness is Ms. Chai Ling. Ms. Chai was a key 
student leader in the 1989 Tiananmen Square movement in China. 
She is now president and chief operating officer of Jenzabar, 
Inc., and founder of All Girls Allowed, whose mission focuses 
on revealing the injustice of China's one-child policy. Prior 
to Jenzabar, Chai Ling worked as a consultant at Bain & 
Company, a leading global business and strategy consulting 
firm. She holds an MBA from Harvard Business School, an MLA in 
public affairs at Princeton University, and a B.A. From Beijing 
University.
    Our third witness today is Dr. Ruth Wasem. She is a 
specialist in immigration policy with the Congressional 
Research Service, Library of Congress. In that capacity, she 
has written reports for Congress that provide research and 
policy analysis on a range of immigration subjects. Since 2000, 
she has led the team of CRS policy analysts, attorneys, and 
information researchers who work in immigration, and she has 
previously testified before this Subcommittee in June of 2007. 
Dr. Wasem completed her doctorate and M.A. From the University 
of Michigan. She received a B.A. From Muskegon College.
    Welcome.
    We will start with our colleague, Mr. Smith. Welcome, 
Chris.

TESTIMONY OF THE HONORABLE CHRISTOPHER SMITH, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Smith of New Jersey. Thank you very much, Mr. Chairman. 
I appreciate deeply your calling this hearing. Ranking Member 
Lofgren, my good friend and colleague Chairman Smith, and all 
the Members of the Committee, thank you for this opportunity.
    Mr. Chairman, in 2000, I wrote a law known as the Admiral 
James W. Nance and Meg Donovan Foreign Relations Act for Fiscal 
Years 2000 and 2001. That bill, H.R. 3427, was signed into law 
in its entirety by reference--Division B of Public Law 106-113.
    [The information referred to follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               __________

    Mr. Smith of New Jersey. Section 801 of Title VIII of that 
act requires the Secretary of State not to issue any visa to, 
and the Attorney General not to admit to the United States, any 
foreign national whom the Secretary finds, based on credible 
and specific information, to have been directly involved in the 
establishment or enforcement of forced abortion or forced 
sterilization.
    Sadly, Mr. Chairman, to the best of my knowledge, both 
under Presidents Bush and Obama, no one has been rendered 
inadmissible, owing to a glaring lack of implementation.
    The China Democracy Promotion Act of 2011 doesn't seek to 
replace and, with one line of change in the bill text, would 
substantially strengthen U.S. law in this regard and get this 
issue once again front and center.
    The bill seeks to deny entry to the U.S. senior government 
leadership, their immediate family members--and that is new; 
that wasn't in the act that I did in 2000--and anyone else who 
has committed human rights abuses in the PRC or anyone who has 
derived significant financial benefit from those policies--
that, too, is new; we didn't put that in the 2000 act--
including participation in China's cruel, coercive birth 
limitation policy, also known as the one-child-per-couple 
policy, which relies on forced abortion and involuntary 
sterilization to achieve its goals; the violent repression or 
persecution of Tibetans, Uyghurs, and Mongolians or other 
ethnic minorities; trafficking of North Korean refugees or 
their forcible return to North Korea.
    I have held several hearings on that egregious practice by 
the Chinese government to not only turn women and men, but 
mostly women, who make their way across the border into sexual 
slaves who are bought and sold like commodities, but they also, 
when they are done with them, send them back to North Korea, 
where they are immediately incarcerated in gross violation of 
the Refugee Act, to which China is a signatory.
    It also would include violent repression, imprisonment, 
torture, or any other form of persecution of religious 
believers, democracy adherents, workers' rights advocates--we 
all know there are no trade unions like those championed by 
Lech Walesa in China. There is one trade union, run by the 
government. Anyone outside of its purview, outside of the 
parameters very carefully set by the government, goes to 
prison.
    And I, too, have held hearings on that, as you know, Mr. 
Chairman, where we have heard from these activists who bravely 
stand up to the government while there are government officials 
who are implementing that repression on these people who simply 
want collective bargaining and a decent wage for their work.
    Independent media, journalists, and Internet users. I have 
held three hearings, Mr. Chairman, on the gross abuse of the 
Internet, including the infamous one, or infamous in terms of 
their testimony, when we heard from some of the big giants, 
including Google, Microsoft, Yahoo, and Cisco, who, under oath, 
said, we can't tell what you we are censoring, and we can't 
tell you this or that. But, meanwhile, 35,000 to 40,000--nobody 
knows the exact number--of cyber police comb the Internet 
looking to find users who say prohibited things like the 
``Dalai Lama'' or ``freedom of religion'' or anything else or 
even something favorable about the United States.
    As the recently released annual human rights report for 
2011 by the Congressional-Executive Commission on China notes--
and I do chair that commission--quote, ``China's leaders have 
grown more assertive in their violation of rights, disregarding 
the very laws and international standards that they claim to 
uphold and tightening their grip on Chinese society.''
    They have done a head-fake. They are now citing human 
rights laws, signing on to U.N. documents, including the 
International Covenant on Civil and Political Rights, and then 
they use the language of rights and they totally co-opt it 
while they repress their own society.
    Liu Xiaobo, who was awarded the 2010 Nobel Peace Prize for 
his long and nonviolent struggle for fundamental human rights 
in China, continues to remain incarcerated, having served 11 
years in prison, for simply signing a document calling for 
democracy in China.
    Yesterday, Mr. Chairman, I chaired a hearing on the plight 
of Chinese activist lawyer Chen Guancheng and his wife Yuan 
Weijing, who since 2005 have been subjected to beatings. Their 
6-year-old daughter is in their house under house arrest. And 
they pummel this man and his wife. We don't even know if he is 
dead or alive. And this man stood up for the women in Linyi 
city through a class action lawsuit--unbelievable bravery--who 
had been forced into abortion.
    I finally say, because I know my time is running out, that 
in 2004 and again in 2006, Mr. Chairman, I authored the Belarus 
Democracy Act, which this language very closely parallels. And 
while it didn't say absolutely, ``Create a list, Mr. 
President,'' President Bush did faithfully, as a result of the 
language in the bill which calls for denial of entry in the 
U.S. of senior leadership of the Government of Belarus, a list 
of about 200 people, egregious violators of human rights. And 
it has been paralleled by our friends in the European Union, 
who now have a list just like ours, almost identical names. And 
that has very much targeted and, in a calibrated way, said, 
let's target the abusers. And we won't allow them to come to 
the United States, and we will hold them to account in any way 
we can. This is but one more tool in that effort.
    I thank you, Mr. Chairman. I ask that my full statement be 
made a part of the record.
    [The prepared statement of Mr. Smith follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. The time of the gentleman has expired. And, 
yes, as I said earlier, your entire statement will be made a 
part of the record of the hearing.
    Ms. Chai?

       TESTIMONY OF CHAI LING, FOUNDER, ALL GIRLS ALLOWED

    Ms. Chai. Well, thank you, Chairman and Chairman Lamar 
Smith and Congresswoman Lofgren. And I thank you for all the 
other Members of the Committee and for giving us this great 
opportunity to testify in front of you to really push forward 
H.R. 2121, the ``China Democracy Promotion Act.''
    I believe the reason why I am standing here supporting this 
bill is, first of all, this is a historical step to reverse the 
previous 22-year-long U.S.-China relationship that had led 
China's human rights conditions to continue deteriorating and 
to massive crimes, which I will explain later. And the second 
reason why I am supporting this bill is because it can work. 
The third thing I believe is because this is the right thing to 
do to both help China and also defend the value and liberty of 
the United States.
    I am especially honored to be testifying alongside with 
Chairman Smith, for he is our hero and the true force of 
America. And he has been fighting against China's cruel and 
inhumane one-child policy since it was first put into action in 
1980--before many of us, the native Chinese, have ever realized 
how gruesome and brutal this policy has been for women and 
mothers.
    I look forward for the day, Chairman Smith, Chris Smith and 
Lamar Smith, and Chairman--I hope I can pronounce your name--
Gallegly and Congresswoman Lofgren, that we can all, together, 
put this really dark and bloody period of China's history into 
the history book so it may never happen again.
    Twenty-two years ago, I was at Tiananmen Square on June 4th 
morning when the tanks and troops moved in. I remember at that 
time we stayed until 6 a.m., because rumor was telling us if we 
stayed there until the last hour--that is, 6 a.m.--somehow the 
United States leadership would come intervene to stop China's 
leadership's brutality. But it did not happen.
    I came to America. Finally, I met with Ambassador Lilly, 
who passed away I think last year. And I asked him why; was 
that rumor true? And he said, no, it was not true at all. I 
said, why don't they do something? He said, because they don't 
care. And I was very disappointed.
    Later on, I read his memoir, a really moving memoir, 
``China Hand.'' I realized in 1988 when South Korea was facing 
the same kind of confrontation between the dictatorship versus, 
you know, dissidents, President Reagan sent a very stern letter 
to warn the leaders and dictators of South Korean leaders, and 
Ambassador Lilly was able to hand-deliver that letter. That 
action changed the history of South Korea, and it led to the 
dictator to give amnesty to all the dissidents and eventually 
led to South Koreas' freedom and democracy.
    I believe had the United States leadership acted that day, 
on the night of June 4th, and we would have a different China, 
different U.S. relationship today. But it is not too late to 
act, 22 years later.
    However, after 22 years, now we are looking back, the 
massive crime that has been committed under the current U.S.-
China, you know, ``tolerate policy'' of putting profit, 
business security above the basic human rights. And it allows 
China's government to repeat the Tiananmen massacre every hour. 
Under the one-child policy, every day there are 35,000 forced 
and coerced abortions taking place. Every day there are 500 
women committing suicide. For every sixth girl that is 
scheduled to be born, the number-six girl will be killed, the 
number-six boy will never find a wife. So, all together, in the 
past 30 years, more than 400 million lives have been taken.
    Later, I would like to show the real examples of all the 
faces and the cries of these victims in PowerPoint.
    And I believe why this bill can work is because it worked 
before. In the past, in Burma, when in 2008 Congress passed the 
Tom Lantos Block Burmese JADE (Junta's Anti-Democratic Efforts) 
to close a loophole in the Burmese Freedom and Democracy Act. 
Together, that act calls for accountability for those who are 
responsible for human rights violations and it enforces visa 
bans for certain junta leaders. This extends to the immediate 
family members, as well.
    According to reliable resources, when entering 
negotiations, a visa ban may become a powerful bargaining chip. 
The first thing the leaders requested when asked to release the 
Nobel Peace Prize winner Aung San Suu Kyi from house arrest, 
for the visa ban to be lifted. That is what they really care 
about. So does the same thing, and the Chinese leader will 
care. Today, in 2010, there are over 128,000 Chinese students 
studying in America. Every single Chinese leader and bureaucrat 
wants their children to be in America, and they want their 
assets to be stored and preserved and invested in America. And 
they cannot enjoy this privilege if they continue to brutalize 
their very own people.
    And I believe this is the right thing to do for America 
because in many buildings they state, you know, ``In God We 
Trust.'' And I remember, I was so struck when I first came to 
America in 1990 to testify in Congress. And it took me many 
years in America to try to understand what they really mean, 
until I finally came to Jesus one day 2 years ago. And now I 
know what it means.
    So I want to quote a story from the Bible from the Old 
Testament. When Miriam and Aaron spoke against Moses, God said 
in Numbers, Chapter 12, ``My servant Moses, of all my houses, 
he is the one I trust. So why were you free to criticize my 
servant Moses?'' Then God punished Miriam and Aaron for their 
transgressions against God's chosen servant.
    What I meant to say in that story is if you truly trust 
God, if we truly trust his promise, the surprising answer, what 
is the cost of the consequence for the U.S. Stand up against 
the human rights abuses in China? The answer is, the cost of 
doing nothing, the cost of repeating what we have been doing in 
the past 28 years will be much higher than standing up to doing 
the right thing, the Godly thing, and the righteous thing.
    Mr. Gallegly. I am going to have to stop you there.
    Ms. Chai. Yes. I thank you for the time.
    Mr. Gallegly. The full statement will be a part of the 
record of the hearing, and I thank you for your testimony.
    Ms. Chai. I would also like to include--this is the 350 
names, and addresses of the forced-abortion one-child policy 
policymakers and enforcers. We would like this to be the 
beginning of those----
    Mr. Gallegly. Without objection----
    Ms. Chai [continuing]. Names to be entered into the 
record----
    Mr. Gallegly [continuing]. That will be added to the record 
of the hearing.
    Ms. Chai [continuing]. And also the pictures of the stories 
of all these, you know, one-child policy victims entered into 
the record, too.
    Mr. Gallegly. That document will be added to the record, 
without objection.
    Ms. Chai. Thank you.
    [The prepared statement of Ms. Chai follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               __________

    Mr. Gallegly. Dr. Wasem?

 TESTIMONY OF RUTH ELLEN WASEM, Ph.D., CONGRESSIONAL RESEARCH 
        SERVICE, THE LIBRARY OF CONGRESS, WASHINGTON, DC

    Ms. Wasem. Chairman Gallegly, Chairman Smith, Ranking 
Member Lofgren, and Members of the Committee, I am honored to 
be testifying before you this afternoon on behalf of the 
Congressional Research Service.
    As a backdrop to this afternoon's discussion of China 
Democracy Promotion Act, my testimony provides summaries of two 
subsections of the Immigration and Nationality Act: section 
212(a) on the grounds of inadmissibility; and section 212(f), 
which authorizes the President to bar the entry of foreign 
nationals he deems detrimental to the United States.
    These subsections of current law may be considered 
comparable to provisions in H.R. 2121. This legislation states, 
as we have already heard, that the President may exercise the 
authority under 212(f) to deny the entry into the United States 
of foreign nationals from the People's Republic of China who 
engage in human rights violations and other specific acts.
    To gain admission to the United States, foreign nationals 
must first meet a set of criteria specified in the Immigration 
and Nationality Act that determine whether they are eligible. 
Conversely, foreign nationals also must not be deemed 
inadmissible according to other specified grounds in the 
Immigration Act. The Bureau of Consular Affairs in the 
Department of State is the agency responsible for issuing 
visas. All foreign nationals seeking visas must undergo 
inadmissibility reviews performed by the Department of State 
consular offices.
    Section 212(a), now, that is where the grounds of 
inadmissibility are spelled out in the Immigration Act. These 
criteria include health-related grounds, criminal history, 
national security violations. The provisions that discuss the 
criminal and national security grounds are particularly germane 
to today's hearing.
    Among those foreign nationals who are deemed inadmissible 
under current law are: foreign government officials who have 
committed particularly severe violations of religious freedom; 
foreign nationals who have committed, conspired to commit, or 
aided in human trafficking; foreign nationals who ordered, 
incited, assisted, or otherwise participated in genocide; and 
foreign nationals who have committed, ordered, incited, 
assisted, or otherwise participated in the commission of any 
act of torture or extrajudicial killing.
    Furthermore, the 2002 Consolidated Appropriations Act 
included a provision that deems inadmissible any foreign 
national that has been directly involved in the enforcement of 
population-control policies, forcing a woman to undergo an 
abortion against her free choice, or forcing a man to undergo 
sterilization against his--or a woman to undergo sterilization 
against his or her freewill.
    The law does provide exceptions for foreign nationals who 
are heads of state or cabinet-level ministers and is subject to 
a waiver if the Secretary of State determines that it is 
important to national interest. The Secretary of State would 
provide a written notification to the appropriate congressional 
Committees.
    Secondly, I am going to talk about 212(f), and that is the 
suspension of entry or imposition of restrictions. In addition 
to 212(a), which we just discussed, the Immigration Act gives 
the President authority to bar the entry of foreign nationals 
he deems detrimental to the United States. This broad authority 
states, ``Whenever the President finds that the entry of any 
aliens or any class of aliens into the United States would be 
detrimental to the United States, he may, by proclamation and 
for such period as shall be deemed necessary, suspend the entry 
of all aliens of any class of aliens as immigrants or 
nonimmigrants or impose upon the entry of aliens any 
restrictions he may deem appropriate.''
    In August of this year, the President issued Proclamation 
8697, which bars the admission of any foreign national who 
planned, order, assisted, committed, or otherwise participated 
in widespread or systematic violence, war crimes, crimes 
against humanity, or other serious violations of human rights 
against a civilian population.
    Of the 212(f) proclamations currently in effect, most are 
directed at foreign nationals from specific countries or 
regions. These countries currently in effect include Belarus, 
Bosnia, Burma, Cuba, Haiti, Nicaragua, Serbia and Montenegro, 
Sierra Leone, the Sudan, the Western Balkans, and Zimbabwe.
    This concludes my testimony, and I look forward to your 
questions.
    [The prepared statement of Ms. Wasem follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________

    Mr. Gallegly. Thank you very much, Dr. Wasem.
    Chris, how successful is the visa restrictions with regard 
to Burma?
    Mr. Smith of New Jersey. It has been successful, although 
Burma is very, very heavily isolated by the junta itself. But 
it has been part of a multifaceted set of sanctions imposed 
upon it by succeeding Administrations, Republican and Democrat. 
So there aren't many Burmese officials from Rangoon or anywhere 
else in Burma seeking to come here. That is precisely the 
opposite situation with regards to China and, as was proven, 
with Belarus.
    I met with Alexander Lukashenko 2 years ago with 10 other 
Members of Congress and 1 Senator. Lukashenko looked at me and 
said--he is the dictator in Belarus, of course--and said, ``You 
are public enemy number one,'' because of the Belarus Democracy 
Act and because he and his senior leadership are precluded 
visas to come here. And it has had an impact. And the fact that 
our European partners joined in and, likewise, promulgated a 
list to prevent, you know, the issuance of a visa has further 
isolated that last dictatorship in Europe.
    If you look at the language of the Belarus Democracy Act, 
it mirrors what we put into this bill. This bill is a 
blueprint. I even cite in the Belarus Democracy Act section 
212(f), as my good friend Dr. Wasem pointed out. I mean, these 
authorities exist, but they are dormant, they are on a shelf. 
And what we found with the Belarus Democracy Act, President 
Bush took that, and it animated what our policy became--some of 
it mandatory, some of it not. And this is a blueprint for 
action; that is what we have before the Committee.
    Mr. Gallegly. I have a very limited amount of time, so if 
everybody could make an effort to give me succinct answers, I 
would appreciate it.
    In relating to H.R. 2121, the current law, of course, 
already provides the authority to deny visas on human rights 
abusers and specifically with the issue of forced abortions. 
Can you explain why there is a need for 2121 if, in fact, what 
I have said is correct?
    Mr. Smith of New Jersey. Excellent question, Mr. Chairman. 
We add additional provisions that, again, we derived from the 
Belarus Democracy Act: immediate family members; we added a new 
``derived significant financial benefits from'' human rights 
abuse.
    I held a series of hearings, 31 to date, on human rights in 
China as Chairman of the Human Rights Committee for Foreign 
Affairs over the course of many years. At one of those 
hearings, we had members, Harry Wu and many others, who had 
been tortured in the Laogai; Palden Gyatso, a Buddhist monk; a 
woman, Catherine Ho, very courageous woman. And they brought in 
the implements used to torture. Well, this law would say and 
underscore that, at a minimum, people who manufacture those 
kinds of implements, made indigenously in China, should not be 
given visas. So it will require, or, at least, we hope it will 
inspire--better word--a list.
    Right now, 10 years later--and, again, Mr. Chairman, as I 
said in my testimony, I wrote section 801, denial of entry. 
And, unfortunately, under President Bush and under Obama, 
nothing, nada, not a single person that I know of. And part of 
the reason might be we said ``directly involved.'' The Chinese 
government goes into overdrive to deny, as does the U.N. 
Population Fund and all the cheerleaders for that horrific 
program, to say there is no coercion. And then our government 
says, ``Well, we asked, and they said they weren't involved.''
    We need to be much more focused on a human rights policy 
that says, we are going to look at the facts on the ground. If 
you are involved with this, if you are censoring the Internet, 
if you are doing this or that, you can't get a visa to come to 
the United States. So this is a blueprint for action.
    Mr. Gallegly. Thanks.
    My time is getting short, so I would just like to ask Ms. 
Chai, what is your assessment of how the Chinese government 
would respond to us enacting H.R. 2121? How would you define 
and what would you expect for us to be prepared to deal with 
from the Chinese government?
    Ms. Chai. The Chinese government, to me, would be very 
upset. This is something that goes into their heart because 
every one of them want their children and their grandchildren 
and their relatives to be here. And the senior leaders might be 
already taken care of; they may already become U.S. citizens. 
It is the middle level.
    And, for example, there might be between 350,000 to 
850,000, one-child policy family-planning committee people. 
Those people will continue to attempt to send their children to 
America, their wives to America. They will not like it. This 
mess would get into their attention, will give them pause of 
what are they doing, and realize we are watching, and they must 
stop what they are doing.
    I think this message if it gets into China would inspire 
many people to come over, volunteer to help. When the criminals 
list is put forth on the Internet in a central place, I think 
it will be very effective.
    And I think the United States should stand firm. When you 
do act righteous and act justly, love mercy, walk humbly with 
the Lord our God, that God will be our protector and our 
shield. And just stand firm. We will be okay.
    Mr. Gallegly. Ms. Lofgren?
    Ms. Lofgren. Dr. Wasem, if I am hearing you correctly, the 
only substantive change this would make to existing law would 
be to include senior government officials and their families 
whether or not you could prove up that they actively did the 
human rights abuse themselves.
    Ms. Wasem. I wouldn't necessarily say the ``only,'' but 
that is the major----
    Ms. Lofgren. The major issue.
    Ms. Wasem [continuing]. Broadening of it, yes.
    Ms. Lofgren. Right. Now, have we included the families of 
individuals in the past when we have utilized barring, you 
know, visas as a diplomatic tool?
    Ms. Wasem. I know, in current law, some of the bars, if you 
have already--if you have gained financially from the 
activities, particularly if you look at the human trafficking 
and some of the drug----
    Ms. Lofgren. Right.
    Ms. Wasem [continuing]. Provisions, that if you are an 
adult child or a spouse, you are included if it appears that 
you have gained. That is the main thing I am aware of. But in 
the broader sense----
    Ms. Lofgren. What if you were a minor child? What if you 
are, you know, the 14-year-old of a----
    Ms. Wasem. That I am not aware. But I could get back to you 
on it if you want me to----
    Ms. Lofgren. I would just be interested.
    And, Chris, listening to you--I am sorry, Congressman 
Smith--it seems that, if I am hearing you correctly, one of the 
major benefits of this legislation would be to really incent 
the Administration to create a list. Because they have a lot of 
this authority already in existing law, but it hasn't been used 
by two Administrations of different parties. Is that about 
right?
    Mr. Smith of New Jersey. Part of it is out of frustration, 
Zoe--Ms. Lofgren--to the fact that, you know, we have had this 
for 10 years, we have had other existing authorities----
    Ms. Lofgren. Right.
    Mr. Smith of New Jersey [continuing]. And there has been--
--
    Ms. Lofgren. And they are never used.
    Mr. Smith of New Jersey. They haven't done a thing.
    Ms. Lofgren. Yeah. Yeah.
    Mr. Smith of New Jersey. And I raise issues of this kind.
    Ms. Lofgren. Right.
    Mr. Smith of New Jersey. There are other issues, like the 
memorandum of understanding on Gulag labor. It is Swiss cheese; 
it is not implemented.
    Ms. Lofgren. Right.
    Mr. Smith of New Jersey. This is one area where we could 
make a huge difference.
    Ms. Lofgren. Yeah, because it will force them to make the 
list.
    Mr. Smith of New Jersey. The Belarus Democracy Act 
specifically had the family members included, as well.
    Ms. Lofgren. I have another question, which--you referenced 
the Burma situation and the fact that we had gotten 
collaboration from our European allies. I don't think we are 
going to get that kind of collaboration with China because--
well, maybe I would be wrong, but my guess is not.
    Mr. Smith of New Jersey. You know, I actually was one of 
the few who voted for sanctions against South Africa in the 
early 1980's. And part of the argument there was, the Europeans 
are doing it, why aren't we doing it? And, of course, I think 
it was the right policy. But just because some other nation 
refuses to go along, I mean----
    Ms. Lofgren. No, no, I am not suggesting that it should 
keep us from doing what we think is right. I am just asking 
about how effective it will be.
    Mr. Smith of New Jersey. I think that it would be very 
effective because we are a prime destination for high officials 
in the Chinese government. And there are many middle officials, 
there are many people in the security apparatus, which we 
referenced, who are torturers.
    Manfred Nowak, the U.N. Special rapporteur for torture, did 
a scathing report on torture in the PRC, which is now blocked, 
by the way, on their Internet. You can get all of the alleged 
abuses in Guantanamo but nothing about what is going--he wrote 
one about there, too, and he wrote one about the People's 
Republic of China. I read his report. Very, very good U.N. 
diplomat. People do those tortures, and they hop on a plane, 
they come to New York, they come to Washington.
    This would hopefully incentivize the Administration to 
begin chronicling, putting together a list, who are the 
abusers. And, as Chai Ling said, she already has a number of 
abusers that would be a good starting point for the 
Administration. Right now, there is nothing of this kind, to 
the best of my knowledge, going on. If anything, we are 
enabling those people, ``Come on over.'' Well, you know, any 
modest sanction we can impose on a gross abuser of human 
rights, we ought do it.
    Ms. Lofgren. Thank you for answering my questions.
    I yield back, Mr. Chairman.
    Mr. Gallegly. Mr. Gowdy?
    Mr. Gowdy. Thank you, Mr. Chairman.
    Ms. Chai, I want to use my time to give you the opportunity 
to give voice to the women and girls of China whose voices we 
haven't heard, or if we have heard--we have sent messages from 
this government--and I will allow that sometimes people commit 
verbal non sequiturs or verbal gaffes, but to say that we are 
not going to second-judge China's one-child policy or to say 
that we fully understand it, I don't understand it at all.
    So I want you to give voice to the women and girls of China 
who have suffered under this policy.
    Ms. Chai. Thank you, Congressman Gowdy. Your voice and your 
support almost brought me to tears. So I would love to take the 
opportunity you give to me and the honor you give to me to 
speak of those women and the mothers and fathers who cannot be 
here.
    With your permission, I would like to be able to show the 
PowerPoint--you showed it earlier? Okay, they are going to 
drive it, control it.
    I just want to answer, Congresswoman Lofgren, your message 
earlier. Just imagine, the incoming Chinese President in 2012--
his daughter is studying at Harvard. And imagine the impact if 
the next Chinese President will continue to tolerate this one-
child policy. What might be the impact if this bill, H.R. 2121, 
is able to pass before that time? What might be the 
implication?
    This would definitely be the most defining moment in the 
U.S.-China relationship, with this bill.
    Ms. Lofgren. If the gentleman would yield for a follow-up 
on that point since it was directed to me?
    Mr. Gowdy. Yes, ma'am.
    Ms. Lofgren. Here is the question, and it is really not the 
intention, but, as you are saying that, I am thinking, ``Well, 
then, does she go to Oxford instead?'' You know, which goes to 
my question to Chris on how do we get kind of a worldwide 
collaboration on putting the pressure up.
    Mr. Smith of New Jersey. Even the worst abusers of human 
rights in Africa, China, North Korea--maybe not so much in 
North Korea--even people like Joseph Kony and Bashir in Sudan 
don't want to be on a list, don't want to be indicted. They 
seem impervious to any kind of criticism. And it seems to me 
that this is a modest step to say that if you abuse people, we 
are going to be promulgating lists, we are going to be 
following who you are, and you are not welcomed here.
    You know, Chai Ling, hero of the Tiananmen Square student 
movement, suffered immensely, thankfully got out. She has led 
an effort to say, what about the gendercide? Ten years ago, the 
U.S. Department of State had a report in the Country Reports on 
Human Rights Practices that said as many as 100 million girls 
are missing in China.
    I just had a hearing on the one-child-per-couple policy, 
and Chai Ling and several other very distinguished witnesses 
presented. And the point was made that between 40 million and 
50 million, now, men won't find wives by 2020 because they have 
been systematically exterminated through sex-selection 
abortion.
    This is the worst crime of gender ever, and it is being 
done by people. Well, let's focus on who those people are, 
create lists of who is doing not just forced abortion and 
forced sterilization, forced IUD insertion and all the other 
terrible abuses, but let's also look at the other human rights 
abuses, which we do here, and let's finally do something. Ten 
years since I got that law passed, not a thing.
    And Chai Ling has been so brave for all these years, 
raising these issues. And it is about time we had--oh, like she 
has, 300 people who are intimately involved with this--you 
know, at the Nuremberg War Crimes Tribunal, forced abortion was 
construed to be a crime against humanity. It is no less a crime 
against humanity. The Nazis did it, you know, a smaller number, 
and now we have a situation here.
    Ms. Lofgren. I don't disagree with that. It is a question 
of efficacy.
    Mr. Smith of New Jersey. So let's cease political cover----
    Ms. Chai. Right. Exactly.
    Mr. Gowdy. I think we only have about a minute, and I----
    Ms. Lofgren. I would ask unanimous consent that the 
gentleman be given an additional minute since he was----
    Mr. Gallegly. Without objection. There is a conference that 
was just called, so.
    Ms. Chai. Okay. Thank you very much.
    If could you roll the PowerPoint, I would really appreciate 
it.
    And so we prepared pictures that could basically share the 
cases of these people. This is Chen Guancheng, the blind 
attorney. Chairman Smith had held a press conference yesterday. 
He was exposing 130,000 cases in 2005 of forced abortion and 
forced sterilizations in Linyi, he was imprisoned for 4 years 
and 3 months. He has been beaten consistently ever since he was 
released to house arrest in September. We listened in detail 
about how he was beaten for 4 hours nonstop in front of his 
child.
    If you can go to the next page, this is a woman, Wan Li 
Ping, and she was 23. She was not married and got pregnant. 
They found her, dragged her into forced-abortion clinic and 
injected poison into the baby. The baby was killed, and they 
dumped this baby in a plastic bag in front of her bed and asked 
her to pay the money for the operation. She didn't have the 
money, and therefore the baby was dumped in front of her. They 
killed both her baby and her hope, and they want her to pay for 
the procedure.
    The next page is--and every day the 70 percent of the women 
who are going through forced and coerced abortions are single 
women because they are not allowed to have children, they don't 
have marriage certificates, therefore they don't have a birth 
permit.
    This woman, Ms. Chen, she is still in fear. She lives in 
New York now. She had two daughters, and the family-planning 
committee went to her home, saying, ``You are over quota. You 
have two options: be forcibly sterilized or give up one of your 
babies.'' And because of gendercide, her family, her in-laws 
still want her to try to give birth to a baby boy. She 
hesitated, and the baby girl was kidnapped. We don't know where 
that is. And her husband had a mental breakdown after that 
incident.
    Mr. Gowdy. Ms. Chai, the Chairman has been very, very 
gracious to me, and I don't want to take advantage of his 
generosity. But it is unimpeachable that the suicide rate among 
women in China is higher, that the ratio of females to males is 
completely out of balance, that the orphanages are full of 
girls--not boys, but girls.
    Ms. Chai. Yes.
    Mr. Gowdy. And I thank you, Mr. Chairman and Ranking Member 
Lofgren, for giving me extra time.
    And I thank you for being here as the face of those who 
don't have a voice in China, because it is a travesty and it is 
immoral.
    Ms. Chai. Thank you very much.
    Mr. Gallegly. I would just like to say to Ms. Chai that the 
fact that we don't have a large group of folks here today is 
not an indication of their lack of sensitivity or a lack of 
concern for this travesty that most of us are aware of, 
certainly not to the degree that you are or Chris is, but you 
can be assured that your testimony today is not taken lightly 
as a result of the fact of lack of participation. But there are 
so many things going on here.
    I want to make sure that you are aware that, again, all the 
testimony that you have, whether you have formally presented it 
or you have it there in writing, will be made a part of record 
of the hearing so that we will all have an ability to look at 
that and also the pictures that you have brought along. For 
those that are not here, they will be available to them as well 
as us.
    Ms. Chai. Thank you very much. I am grateful.
    Mr. Gallegly. But because of time constraints that we have, 
I am going to have to call the time on the hearing.
    And, without objection, all Members will have 5 legislative 
days to submit to the Chair additional written questions for 
the witnesses, which we will forward to you for your response, 
and hope that we will have a timely response to the questions 
that will be made a part of the record of the hearing.
    And, without objection, all Members will have 5 legislative 
days to submit any additional materials for inclusion in the 
record.
    And, with that, I thank you for being here today.
    And the Subcommittee stands adjourned.
    [Whereupon, at 4:28 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
